Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives


For Release on Delivery
Expected at               The Federal Aviation
                          Administration’s
2:00 p.m. EDT
Wednesday
March 17, 2010
CC-2010-035
                          Oversight of On-Demand
                          Aircraft Operators




                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman, Ranking Member Petri, and Members of the Subcommittee:

We appreciate the opportunity to testify today on the Federal Aviation
Administration’s (FAA) regulatory framework and oversight challenges for on-
demand aircraft operators. On-demand operators are a vital part of the air
transportation system and our economy. In addition to conducting passenger flights
and cargo operations, on-demand operators provide critical services, such as
emergency medical transport and access to small remote communities. Over the last
10 years, however, on-demand operators have been involved in 155 fatal accidents,
compared to 18 involving large commercial air carriers.

At the request of this Subcommittee, we completed a review and issued a report last
July which discussed differences in regulations and oversight for on-demand
operators versus large, commercial carriers. 1 The mid-air collision between an air
tour helicopter and a private aircraft over the Hudson River last August highlighted
the inherent risks in on-demand operations and underscores the need for continued
efforts to enhance oversight of this industry. We are currently completing a second
review on specific challenges in FAA’s oversight of this industry and plan to issue our
report later this spring.

My testimony today is based on this body of work. I would like to discuss three areas
in which we have focused our efforts: (1) the inherent risks surrounding on-demand
operators, (2) the need for an updated and effective regulatory framework given these
risks, and (3) challenges facing FAA in moving from compliance-based oversight to a
risk-based approach.

IN SUMMARY
On-demand operators typically fly in an environment that poses a number of safety
risks. Specifically, they tend to have short flights, resulting in more takeoffs and
landings, the most dangerous part of a flight. They also operate at altitudes that are
vulnerable to terrain and weather obstacles and fly to and from small airports that do
not have air traffic control towers or emergency equipment. Despite these inherent
risks, FAA’s current oversight of this industry is based on compliance with
regulations that are less rigorous than those for commercial carriers and, moreover,
have not been significantly updated in over 3 decades. Our work has shown that
targeted, risk-based oversight from FAA could help mitigate many of the risk factors
we identified. However, to shift to a risk-based oversight model, FAA will need to
overcome several challenges, including ensuring it has enough inspectors with the
right skills and sufficient data to oversee this diverse industry.


1
    OIG Report Number AV-2009-066, “Report on On-Demand Operators: Less Stringent Safety Requirements and
    Oversight than Large Commercial Air Carriers,” July 13, 2009. OIG reports are available on our website:
    www.oig.dot.gov.


                                                                                                         1
BACKGROUND
FAA has three tiers of aviation oversight conducted under three primary regulations:
(1) private owner operations regulated under Part 91; 2 (2) small, commercial
operators flying primarily on-demand service regulated under Part 135; 3 and (3) large,
commercial air carriers regulated under Part 121. 4 These three industry segments
have unique operating environments and serve very different markets.

On-demand operators fly at the request of their customers and operate aircraft that are
configured for 30 or fewer passengers or 7,500 pounds of payload or less. The
operators comprising the on-demand industry segment can range from a company
with 1 pilot and 1 aircraft to a company with over 600 aircraft. Operations include
short flights to small regional airports, cross-country domestic flights, or international
flights. Currently, there are more than 2,300 on-demand operators certificated by
FAA across the country, compared to less than 100 large, commercial carriers. On-
demand operators serve about 5,000 public airports compared to about 500 primary
and commercial airports served by large carriers.

FAA has made progress toward improving aspects of its safety oversight, but our
work continues to identify concerns with how this oversight is performed, particularly
within the on-demand industry. Many of our concerns have also been identified by
the National Transportation Safety Board (NTSB) as safety issues stemming from its
investigations of on-demand accidents. There are currently 39 open NTSB
recommendations related to on-demand operators.

ON-DEMAND OPERATORS FACE A NUMBER OF INHERENT RISKS
On-demand operators and large, commercial air carriers serve divergent markets with
very different equipment and operating environments. Both industry and FAA agree
that on-demand flights operate with more risk factors, which contributes to their
higher accident rate. Specific risk factors include the following:

    • Diverse Aircraft Types: On-demand operators fly many—and often older—
      aircraft types and models, adding to the complexity of maintenance, operations,
      and FAA inspections. Aircraft range from two-seat piston engine aircraft,
      helicopters, single-engine airplanes, turbine-powered airplanes, float planes, and
      jets with 10 or more seats. The 22 operators we reviewed had 321 registered
      aircraft comprised of 65 different makes/models, from small Cessnas to
      Gulfstream jets and Sikorsky helicopters.

2
    14 CFR § 91, General Operating and Flight Rules.
3
    14 CFR § 135, On-Demand, Operating Requirements: Commuter and On Demand Operations and Rules Governing
    Persons On Board Such Aircraft. 14 CFR § 119, Certification: Air Carriers and Commercial Operators, and some of the
    requirements of Part 91 also pertain to on-demand operators and commercial air carriers.
4
    14 CFR § 121, Operating Requirements: Domestic, Flag, and Supplemental Operations.


                                                                                                                     2
    • Technology Limitations: Many of the smaller on-demand operators still have
      very basic equipment in their cockpits, compared to commercial air carriers that
      primarily operate jet aircraft equipped with ground proximity warning and Traffic
      Collision Avoidance Systems (TCAS). TCAS allows pilots to “see” aircraft
      traffic in their vicinity but is not required for on-demand aircraft with nine or
      fewer seats. Yet, operators with that type of aircraft make up 85 percent of the on-
      demand industry. Since TCAS can cost at least $15,000 per aircraft to install,
      there is little motivation for small operators to pursue this technology. Other
      technologies not required for these operators include safety tools, such as in-flight
      weather radar and cockpit voice/data recorders.

    • High-Risk Corridors: Many on-demand aircraft fly at lower altitudes in less
      regulated airspace than commercial carriers. This can create busy, high-risk
      corridors, in which several types of aircraft converge and fly at lower altitudes,
      making them more vulnerable to terrain and weather obstacles.

    • Crew: Due to the various destinations that on-demand operators service, their
      pilots are often unfamiliar with the flight route. Further, cabin attendants on
      smaller on-demand aircraft are not required to have safety or emergency training.

    • Communications: On-demand operators often fly to and from small airports
      without air traffic control towers, so pilots do not have the benefit of a controller’s
      guidance, which can assist flights during periods of low visibility or adverse
      weather. For example, on-demand operators in southern Florida frequently fly
      tourists to the Bahamas, where only 4 of the approximately 30 airports have air
      traffic control towers.

All of these risk factors are inherent in on-demand operations as they include more
frequent flights and therefore more takeoffs and landings. As shown by NTSB
statistics, higher risks have translated into more fatal accidents for on-demand
operators versus commercial carriers. Between 2000 and 2008, the fatal accident rate
for on-demand operators was nearly 50 times higher than that of commercial carriers. 5
The most fatalities for the period 2003 through 2008 occurred in the states of Alaska
and Hawaii and in the Gulf of Mexico. In both Alaska and Hawaii, on-demand air
tours are common, and small planes are a major source of transportation for people
and cargo. In the Gulf of Mexico, there are numerous helicopter operations delivering
crews and supplies to oil rigs.




5
    On-demand accident rates are estimated because FAA does not require operators to report annual operational data. The
    NTSB accident rate is calculated using accidents per 100,000 flight hours. The flight hours for on-demand are projected
    from a voluntary annual general aviation survey (the General Aviation and Air Taxi Activity Survey, or GAATA).


                                                                                                                         3
 CURRENT REGULATIONS FOR ON-DEMAND OPERATORS HAVE
 NOT KEPT PACE WITH INDUSTRY CHANGES
 The on-demand industry has changed significantly over the past 30 years. Today, on-
 demand operators commonly use jet aircraft and fly more complex operations and
 international flights. Despite these changes, FAA has not revised many Part 135
 provisions since 1978. These regulations are also less rigorous than those for large,
 commercial carriers in key areas, such as flight crew requirements and maintenance
 inspections for aircraft (see table 1).         Yet, FAA has not implemented
 recommendations made by its own Part 135 Aviation Rulemaking Committee or the
 NTSB to strengthen Part 135 regulations.
                  Table 1. Regulatory Differences Between Parts 135 and 121

Subject                                              Part 135                          Part 121
Pilot Duty/Rest
Maximum Yearly Flight Hours                          1,400                             1,000

Maximum Flight Hours in 24-Hr. period                10 hours                          8 hours
Personnel Requirements
Minimum Pilot-in-Command                             500 hours and commercial          1,500 hours and Air
Experience/Hours                                     license                           Transport license

Crew Resource Management Training                    Not Required                      Required

FAA-Licensed Dispatcher                              Not Required                      Required
Maintenance
Aging Airplane, Operator Supplemental                Not Required for all
                                                                                       Required
Inspections                                          operators
Aging Airplane, FAA Inspection and Records           Not Required for all
                                                                                       Required
Review                                               operators
Maintenance program that includes required
                                                     Not Required for all
inspection items and continuous analysis and                                           Required
                                                     operators
surveillance system
 Note: Depending on the size and type of aircraft used, FAA regulations for on-demand operations can be more or less
 restrictive. This table contains the least restrictive regulations for on-demand aircraft for each subject.

 Less Stringent Requirements for Crew Training
 On-demand operators are not required to follow some of the more stringent crew
 regulations that large, commercial carriers must operate under. First, most on-demand
 carriers are not required to provide their pilots with Crew Resource Management
 (CRM) training, which focuses on leadership and decision making skills in the
 cockpit and is one of the NTSB’s top six recommended safety improvements for on-
 demand operators. The NTSB determined that crew errors were the primary cause of
 three on-demand accidents between 2001 and 2004 and concluded that an effective
 CRM program might have prevented them. FAA issued a Notice of Proposed


                                                                                                                  4
Rulemaking for Part 135 CRM training in May 2009 and is currently reviewing
industry comments. We plan to monitor the progress of the rule for this critical
training.

Second, on-demand operators are not required to provide safety training for cabin
attendants if the aircraft carries 19 or fewer passengers. 6 The February 2005 accident
in Teterboro, New Jersey, demonstrates the need for this type of crew training. The
passenger jet crashed on takeoff, destroying the aircraft and resulting in serious
injuries. The NTSB’s investigation of the incident found significant safety breaches.
Specifically, passengers did not receive a safety briefing prior to takeoff, some
passengers were not wearing seatbelts when the takeoff roll began, and the cabin aide
was unable to open the main cabin door to evacuate passengers. The NTSB
concluded that training was inadequate to prepare the cabin aide to perform her
assigned duties.

Finally, on-demand operators are not subject to certain requirements for non-flight
crew support. For example, unlike commercial carriers, on-demand operators are not
required to have FAA-licensed dispatchers to monitor flight progress and provide the
pilot with safety information, such as weather and airport conditions, before and
during flight. Instead, on-demand operators need only establish procedures for
locating and following each flight so they can quickly notify FAA or conduct search-
and-rescue if an aircraft is overdue or missing.

Maintenance Requirements Are Lacking, Despite On-Demand Operators’
Aging Fleet
About 60 percent of the on-demand passenger and cargo fleet is over 20 years old, 7
compared to the average age of 10 years for aircraft flown by large, commercial
carriers. 8 Despite this difference, maintenance requirements for on-demand operators
are less stringent. While FAA requires aging aircraft inspections for Part 121 and Part
135 commuter aircraft that have been in service for 14 years or longer, no similar
requirements are in place for the majority of on-demand operators.

Many of the maintenance regulations for on-demand aircraft seating 10 or more
passengers are similar to those for large, commercial aircraft. For example, carriers
using those types of aircraft must have a Continuing Analysis and Surveillance
System (CASS) and a Required Inspection Items (RII) process. CASS is an internal
evaluation system that regularly reviews the performance and effectiveness of an air
carrier’s maintenance and inspection program and corrects any identified deficiencies.

6
    This is also true for the small number of Part 121 aircraft that seat 19 or fewer passengers.
7
    Section 735 of the Wendell H. Ford Aviation Investment and Reform Act for the 21st Century, Pub. L. No. 106-181
    (2000) (codified at 49 U.S.C. § 40101). Section 735 of the Act mandated a study of the operations of the air taxi industry.
    FAA issued this report, “Part 135 Air Taxi Operators (ATO) Study,” to Congress. The report is undated, but according to
    secondary sources it was issued in December 2004.
8
    OIG calculated using 2007 air fleet age data from www.airsafe.com.


                                                                                                                             5
RIIs are mandatory maintenance activities that, due to their importance to the overall
airworthiness of the aircraft, must be independently inspected by a specially trained
inspector after the work is complete. Although these are critical elements of an air
carrier’s maintenance program, they are not required for on-demand aircraft seating
nine or fewer passengers, which make up a larger percentage of the industry and are
involved in more fatal accidents.

FAA’s Voluntary Safety Efforts for Emergency Helicopter Operators
Have Not Been Effective
Certain segments of the on-demand industry have greater risks and therefore warrant
risk-based oversight. This is particularly the case with Helicopter Emergency
Medical Services (HEMS) operations, which are frequently conducted in high-risk
environments, such as poor weather, low visibility, and high stress. Many HEMS
flights pick up patients at accident scenes and land at hospital helipads without the
benefit of air traffic control.

High fatalities and the high-risk HEMS environment led FAA to establish a HEMS
safety initiative in 2005. Rather than regulatory requirements, this initiative focused
on recommendations for voluntary operator actions, which have been insufficient to
ensure safe operations and decrease fatal accidents. Fatal HEMS accidents increased
considerably in 2008, with a total of 8 crashes that resulted in 29 fatalities. In January
2009, the NTSB issued a report calling on FAA to impose stricter requirements on all
HEMS flights and held a public hearing the following month. FAA now has a HEMS
rulemaking effort underway, but to date has not issued a proposed rule.

FAA Regulations Do Not Provide One Level of Safety for Air Tour
Passengers
Air tours are inherently high-risk, as they are usually conducted at low altitudes in
areas where other aircraft are operating and with pilots conversing with passengers.
Despite these risks, Part 135 regulations include an exception that allows some air
tour operators to fly for hire under Part 91 regulations for general aviation. 9 This
means they may receive less oversight since air tours operating under Part 91
regulations do not have an annual FAA surveillance plan. Between January 2003 and
July 2009, there were 86 air tour accidents operating under this exception, 12 of
which resulted in 23 fatalities. For example, in 2004, an air tour operating under Part
91 regulations crashed in Hawaii, killing the pilot and four passengers. The NTSB
cited the lack of FAA surveillance as a contributing factor in the fatal accident. Prior
to the accident, the air tour operator had never received an FAA operations inspection.



9
    The Part 135 exception allows air tours to fly under Part 91 rules if they operate within a 25-mile radius of their takeoff
    point and do not make any interim landings.


                                                                                                                             6
In 1995, the NTSB recommended that FAA develop and implement national
standards to bring all air tour flights under Part 135 requirements. FAA issued a
Notice of Proposed Rulemaking for air tours in October 2003 that would have limited
Part 91 air tours to charitable and nonprofit events. However, FAA received
thousands of comments, some of which argued that complying with Part 135
regulations would drive many small operators out of business. As a result, FAA
substantially revised the rule’s provisions before releasing it in February 2007. While
the new rule requires air tours operating under Part 91 regulations to obtain an FAA
letter of authorization, we are concerned that the new rule does not address all
identified safety issues. For example, the rule still would not require many of the
standards in place for Part 135 operators, including pilot training programs, more
stringent maintenance policies, flight time limitations, crew rest restrictions, and an
FAA surveillance program.

FAA Has Not Addressed Recommendations To Strengthen Part 135
Regulations
In response to new technologies, new aircraft types, and changes in on-demand
operating environments, FAA formed an Aviation Rulemaking Committee, or ARC,
in 2003 to review Part 135 regulations. In September 2005, the ARC submitted
124 recommendations to FAA covering issues such as crew rest, flight in icing
conditions, cockpit voice recorders, and collection of operational data. To date,
however, FAA has not issued final rulemakings to address any of the ARC’s
recommendations. In addition, there are currently 39 open NTSB recommendations
from on-demand accident investigations—some of which were issued as early as
2003. Table 2 shows the ARC and similar NTSB recommendations to improve on-
demand safety in several key safety areas.




                                                                                     7
           Table 2. Examples of Open On-Demand ARC and NTSB Recommendations

ARC Recommendation and Proposal to                       Similar NTSB Recommendation?                   FAA Action
FAA, September 2005                                      (based On-Demand Accident
                                                         Investigation)
Flight Duty and Rest
Amend the flight, duty, and rest limitations to          Yes - NTSB Most Wanted (all                    No NPRM to
be more applicable to air carriers operating             commercial operations)                         date
under regulations for on-demand operators.
Icing Conditions
Regulations for pilot training to include ice            Yes (all commercial operations)                No NPRM to
detection in order to reduce dangers                                                                    date
applicable to on-demand aircraft.
Crew Resource Management (CRM)
Require dual-pilot on-demand operations to               Yes - NTSB Most Wanted                         NPRM issued
establish an FAA-approved CRM training                                                                  May 1, 2009
program.

Cabin Safety
Create two categories of crewmembers that                Yes                                            Voluntary
are assigned cabin duties: Cabin Safety                                                                 guidance
Crewmember and Passenger Service                                                                        issued. No
Specialist.                                                                                             NPRM to date


 FAA’S OVERSIGHT OF ON-DEMAND OPERATORS IS NOT DRIVEN
 BY RISK BASED ASSESSMENTS
 Despite the significant risks inherent to on-demand operators, FAA lacks an oversight
 approach that targets areas posing the greatest risk. Instead, FAA’s inspector work
 programs are based on pre-determined inspections designed at the national level. 10 As
 a result, on-demand operators and activities with the most risk receive fewer FAA
 inspections. Inspectors are also challenged by a heavy and complex workload,
 training and turnover issues, and inadequate data regarding on-demand operations.




 10
      Inspectors must complete all pre-determined inspections (R-items) assigned by the NPG and may add other inspections to
      their work plan (planned or P-items) for operators that they feel need additional oversight.


                                                                                                                          8
     FAA Inspections Do Not Focus on Higher Risk On-Demand Operators
     and Activities
     On-demand operators with aircraft carrying nine or fewer passengers pose the highest
     risk in the industry and represent more than 85 percent of total on-demand operators.
     However, FAA’s National Program Guidelines (NPG) for assigning inspections tend
     to target on-demand operators with aircraft carrying 10 or more passengers.
     Consequently, FAA conducts far fewer inspections of the highest risk on-demand
     operators (see figures 1 and 2).




FY 2006 - 2008                                                             FY 2006 - 2008


     While FAA provides tools for prioritizing inspections, they are generally not being
     used. For example, FAA’s Surveillance Priority Index (SPI) 11 uses factors such as
     fleet size, accidents and incidents, management turnover, and violations to quantify
     on-demand operators’ risk status. Yet, only 6 of the 43 inspectors we interviewed
     used SPI risk scores. Many inspectors we interviewed also do not use FAA’s Safety
     Performance Analysis System (SPAS) for safety or risk assessments—primarily
     because they believe SPAS is not useful in analyzing risks for their on-demand
     operators. Instead, they determine what needs to be inspected based on general
     perceptions or their experience with operators.

     FAA also does not target its inspections to higher risk activities. Of key concern is
     the lack of operations inspections. Nearly 70 percent of fatal on-demand accidents are
     caused by pilot error, but less than 30 percent of all inspections we reviewed were of
     operations activities that would directly affect this risk, such as pilot training
     programs, crew and dispatch records, or trip records. As shown in figure 3, on-
     demand operators received more maintenance and avionics inspections than
     operations inspections. This is because FAA’s NPG requires more of these types of
     inspections for on-demand operators with larger aircraft, even though maintenance
     and equipment problems have not been the primary cause of fatal on-demand
     accidents.


     11
          The SPI is currently in draft and inspectors are not required to use it.


                                                                                            9
FAA plans to implement a risk-based System Approach for Safety Oversight for on-
demand operators in 2013. However, because of the higher fatality rate associated
with on-demand operations, FAA needs to implement an interim process that
considers the inherent operational risk factors in on-demand operations.

Inspector Workforce Issues Impact On-Demand Oversight
While establishing a risk-based oversight approach is important, it will only be viable
if FAA has enough qualified inspectors to implement it. To do so, FAA must address
a number of challenges within the inspector workforce. For example:

     • Large, complex workload:            While FAA principal inspectors for large,
       commercial carriers are usually responsible for only one carrier, on-demand
       inspectors often oversee multiple operators and other entities, such as repair
       stations, flight schools, training centers, FAA designees, 12 and public use
       organizations. One on-demand inspector we spoke with was responsible for
       53 different entities. In addition to inspections, on-demand inspectors have
       certificate management responsibilities, such as reviewing new certificate
       applications, approving revisions to manuals and operations specifications, and
       adding or removing aircraft from certificates. On-demand inspectors also have
       collateral duties such as desk duty and hotline and accident investigation.
     • High inspector turnover: High inspector turnover was a problem at three of the
       six locations we visited: South Florida; Van Nuys, California; and Anchorage,
       Alaska. For example, in the Alaska office, 40 percent of the staff at the time of
       our visit were hired within the last 2 years. According to FAA personnel, it takes
       at least 1 year to train a new inspector and even longer for them to gain familiarity
       with their operators.



12
     A designee is a representative of the FAA Administrator authorized to examine, test, and/or make inspections necessary
     to issue certificates for airmen, aircraft, and manufacturing processes. Both individuals and organizations can be granted
     designee status.


                                                                                                                           10
     • Gaps in training and experience: The large number of on-demand operators,
       their geographic dispersion, and operations with multiple models of aircraft makes
       it difficult for inspectors to gain and maintain the necessary skill set needed to
       oversee this industry. For example, if an on-demand operator does not have a
       pilot qualified as a designee to conduct other pilots’ competency checks on a
       specific type of aircraft, an FAA inspector with current experience in that aircraft
       must conduct the check. However, FAA inspectors may have difficulty
       maintaining current experience if their assigned operators use multiple types of
       aircraft. Operators cited numerous instances of waiting months for FAA to
       approve manuals or aircraft or perform competency evaluations of their pilots.

Data To Identify On-Demand Risk Factors Are Not Collected by FAA
FAA inspectors lack comprehensive and reliable data on the on-demand industry and
operators because FAA relies on a voluntary survey (the General Aviation and Air
Taxi Activity Survey or GAATA 13) to collect industry data. In addition, FAA does
not collect operator data related to the unique risk factors inherent in the on-demand
operating environment.

While 63 percent of on-demand operators participated in the GAATA survey, this still
leaves a large number of non-participants. Further, the survey does not collect critical
metrics, such as the number of passengers and departures, or contain validated data on
flight hours, which are necessary to project accident rates. The annual report on the
survey is also not useful to inspectors since FAA does not analyze any of the data
collected. Instead, FAA reports only a compilation of data tables. The NTSB cited
problems with GAATA in both 2003 and 2005, and its recommendations led to FAA
improvements, such as increasing the survey sample size to include all on-demand
operators and sending the survey to operators rather than owners (who are usually
financial institutions with no knowledge of operations).

However, FAA has not implemented other key NTSB recommendations, such as
collecting more pertinent data on total flight hours and flight time by category (e.g.,
passenger or air medical purposes). This type of data is already required from large,
commercial carriers and Part 135 scheduled (commuter) operators. The on-demand
industry supports this concept, but there is a lack of consensus regarding how much
and what type of data should be required given the large number of diverse operators.
Moreover, the voluntary nature of the survey severely limits its usefulness. Required
reporting is necessary because without reliable flight hour data, FAA cannot compare
the safety records of on-demand operators in order to assess risk and prioritize
inspections.

Finally, FAA inspectors do not collect data in the field on many of the operational
factors that actually create the increased risks in on-demand operations. FAA
13
     This survey is also referred to as the General Aviation Part 135 Activity (GAP135A) Survey.


                                                                                                   11
inspectors visit these operators at least annually and could collect the data for input
into a more robust SPI. The risk factors in both SPI and the Surveillance and
Evaluation Program 14 are adapted from Part 121 oversight. Therefore, neither tool
incorporates factors unique to on-demand operations, such as whether destination or
departure airports have air traffic control, the terrain and weather patterns of the
operations, or the type of safety equipment on the aircraft (such as TCAS). Without
this type of data, FAA cannot identify and prioritize highest risk on-demand operators
and activities for oversight.

CONCLUSION
On-demand operators play a vital role in commercial aviation but require increased
FAA scrutiny. Because the on-demand operating environment carries inherently
higher risks, adjustments are needed in FAA’s regulatory and oversight approach.
While FAA is taking steps to enhance the safety and oversight of on-demand
operators in response to our recent report, much work remains. We will continue to
monitor FAA’s progress as it strives to provide one level of safety for all commercial
operators.




14
     The Surveillance and Evaluation Program (SEP) was added to the NPG in 2002 to incorporate risk assessment principles
     into oversight of commercial carriers not yet under the Air Transportation and Oversight System (ATOS). SEP is used by
     a small number of Flight Standards District Offices for on-demand oversight.


                                                                                                                       12
